NO. 19-1173

In the
Supreme Court of the United States
COMCAST CORPORATION, ET AL.,
Petitioners,
V.

INTERNATIONAL TRADE COMMISSION, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h) and 33.1(g)(iii), the Reply Brief for the
Petitioners contains 2,999 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d).
Dated: June 11, 2020

Respectfully submitted,

Arn Jacobsen

